Henry E. Gossage
9421 Johnson Pt Lp NE
Olympia, WA 98516
hegossage@gmail.com
(360) 951-7826
September 4, 2019
Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: Henry Eugene Gossage v. Merit System
Protection Board
Case No. 19-143
Blanket Consent to Amicus Curiae Filings
I am the Pro se Veteran Petitioner in this case. I hereby consent to the filing of any
brief's amici curiae in support of any party or of neither party filed within the time
allowed by this Court's rules.
Respe

fr)1
4
Henry E ene Gossage
Pro se Veteran

cc: Counsel of Record

RECEIVED
SEP 1 2 2019
OFFICE OF THE CLERK
SUPREME CC!.!RT.

